Audit of USAID’s Distribution of P.L. 480 Title II
Non-Emergency Assistance in Support of Its
Direct Food Aid Distribution Program
Audit Report Number 9-000-04-002-P
March 31, 2004




                  Washington, D.C.
March 31, 2004


MEMORANDUM
FOR:          Lauren Landis, DCHA/FFP Director

FROM:         Nathan S. Lokos, IG/A/PA Director /s/

SUBJECT:      Audit of USAID’s Distribution of P.L. 480 Title II Non-Emergency
              Assistance in Support of Its Direct Food Aid Distribution Program
              (Audit Report No. 9-000-04-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included them
as Appendix II.

The report contains one recommendation for corrective action. In your written
comments, you concurred with the recommendation and provided evidence that
appropriate action has been taken to address our concerns. Therefore, we consider
that final action has been taken with regards to this recommendation.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.
This page left intentionally blank




                                     2
Table of   Summary of Results.......................................................................................... 5
Contents
           Background ....................................................................................................... 6

           Audit Objective................................................................................................. 6

           Audit Findings .................................................................................................. 7

                      Did selected USAID operating units, through their monitoring and
                      oversight, ensure that P.L. 480 Title II non-emergency assistance
                      programmed for direct food aid distribution programs was
                      delivered to the intended beneficiaries in accordance with existing
                      agreements?........................................................................................... 7

                          Procedures for Reviewing Commodity Losses Should Be
                          Strengthened ......................................................................................7

                          Procedures for Tracking Commodity Losses Should Be
                          Strengthened ....................................................................................11

                          Procedures for Performing Site Visits Should Be Strengthened .....13

                          Food Denied to Beneficiaries That Did Not Make Voluntary
                          Contributions ...................................................................................15

           Management Comments and Our Evaluation ..................................................16

           Appendix I – Scope and Methodology ............................................................17

           Appendix II – Management Comments...........................................................19

           Appendix III – Reports Issued on Selected Operating Units...........................21

           Appendix IV – Summary of Selected Audit Recommendations .....................23




                                                                                                                                  3
This page left intentionally blank




                                     4
Summary of   This report summarizes the results of fieldwork for four audits conducted at
Results      selected USAID operating units (i.e., missions) by the Office of Inspector
             General’s (OIG) Performance Audit Division in Washington, D.C. and three of
             the OIG’s Regional Inspector General offices. The audits were designed to
             determine whether the selected missions, through their monitoring activities, were
             ensuring that Title II non-emergency assistance programmed for direct food aid
             distribution activities was being delivered to the intended beneficiaries in
             accordance with existing agreements with cooperating sponsors. (See page 6.)

             For the activities reviewed, all four of the selected missions were found to be
             monitoring their respective Title II non-emergency programs to ensure that food
             aid was being delivered to the intended beneficiaries. Missions, for example,
             were maintaining regular contact with the cooperating sponsors and generally
             conducting periodic field visits to their warehouses and distribution sites. In
             addition, records showed that missions for the most part were receiving required
             reports from the cooperating sponsors for review. Nevertheless, the audits
             identified several areas for improvement that prompted audit recommendations.
             Those areas fall into four main categories:

                    Follow-up and Review of Commodity Losses: Missions were not always
                    adequately following up and reviewing commodity loss claims to ensure
                    claims were reviewed and resolved in a timely manner. (See page 7.)

                    Tracking of Commodity Losses: Schedules maintained by missions for
                    tracking commodity loss claims were not always accurate. (See page 11.)

                    Performance of Site Visits: Site visits were not always performed on a
                    regular or systematic basis and, at times, limited in scope. (See page 13.)

                    Voluntary Contributions: A cooperating sponsor required beneficiaries to
                    make “voluntary" contributions in exchange for their food rations and, in
                    some cases, denied food to those who were unable to pay. (See page 15.)

             In addition to the mission-specific corrective actions, there is also corrective
             action that the Bureau of Democracy, Conflict and Humanitarian Assistance’s
             Office of Food for Peace (DCHA/FFP) can take to strengthen the monitoring of
             all Title II non-emergency programs. This report recommends that DCHA/FFP:

                o issue guidance to its missions reminding them of the need to follow up and
                  review commodity loss claim reports on a regular basis. (See page 10.)

             DCHA/FFP concurred with the recommendation and provided evidence that it
             had issued guidance to missions addressing the auditors’ concerns. Based on its
             response, we consider that final action has been taken on this recommendation.

                                                                                             5
Background        The Agricultural Trade Development and Assistance Act of 1954, also known as
                  P.L. 480, is the statutory authority for the Food for Peace Program and the
                  principal mechanism through which the U.S. Government implements its
                  international food assistance initiatives. The intent of this legislation, which has
                  been amended many times, is to promote food security in the developing world
                  through humanitarian and developmental uses of food assistance. The bulk of the
                  food aid provided under P.L. 480 is furnished under the Title II program in the
                  form of (1) emergency and (2) development (or non-emergency) assistance.

                  This audit focused on the program’s non-emergency, non-monetized1 assistance
                  which is used to mitigate food insecurity by promoting development projects that
                  enhance household nutrition or increase agricultural production. This assistance
                  is furnished through direct distribution programs—such as the Food for Work,
                  Maternal/Child Health, General Relief, and School Feeding programs—and
                  implemented through cooperating sponsors that include private voluntary
                  organizations, non-governmental organizations and international organizations
                  such as the United Nations World Food Program (WFP)2.

                  In recent years, the food aid area has received increased attention from both the
                  Executive and Legislative branches as evidenced by recent GAO audits as well as
                  by the issuance of The President’s Management Agenda which cited the reform of
                  food assistance programs as one of the Administration’s 14 priority initiatives. In
                  light of this interest, the OIG performed a worldwide audit at selected USAID
                  missions to determine whether USAID was adequately monitoring distribution
                  activities to ensure that U.S. food aid is feeding targeted beneficiaries.



Audit Objective   The Office of Inspector General (OIG) conducted several audits as part of a
                  worldwide audit of the distribution of P.L. 480 Title II non-emergency food
                  assistance. (See Appendix III.) This report summarizes the results of these audits
                  which were performed at USAID missions in four locations.3 Specifically, this
                  worldwide audit was designed to answer the following question:

                           Did selected USAID operating units, through their monitoring and
                           oversight, ensure that P.L. 480 Title II non-emergency assistance
                           programmed for direct food aid distribution programs was delivered
                           to the intended beneficiaries in accordance with existing agreements?

                  Appendix I contains a discussion of the audit scope and methodology.

                  1
                    Some Title II assistance is monetized, or sold, with the proceeds used for development activities.
                  2
                    The USAID/OIG does not audit WFP programs.
                  3
                    The four locations were Madagascar, Guatemala, Ghana and Ethiopia.

                                                                                                                     6
Audit Findings   Did selected USAID operating units, through their monitoring and oversight,
                 ensure that P.L. 480 Title II non-emergency assistance programmed for
                 direct food aid distribution programs was delivered to the intended
                 beneficiaries in accordance with existing agreements?

                 For the activities reviewed, we determined that all four of the selected USAID
                 operating units (i.e., missions) were monitoring their respective Title II non-
                 emergency assistance programs to ensure that the food aid furnished under each
                 was being delivered to the intended beneficiaries.

                 For example, mission staff appeared to be maintaining regular contact with the
                 cooperating sponsors, meeting on at least a periodic basis to discuss various
                 aspects of the Title II program while also conducting site visits to their
                 warehouses and distribution centers. Additionally, records on file at the missions
                 showed that the missions were generally receiving and reviewing required reports
                 from the cooperating sponsors, including commodity call forward requests,
                 commodity and recipient status reports, commodity loss claims reports and the
                 cooperating sponsors’ annual results report. The audit also verified during field
                 visits that the cooperating sponsors had procedures in place for accounting for the
                 receipt, storage and distribution of Title II commodities and observed the
                 distribution of these commodities to the intended beneficiaries in each country.

                 However, the audits of the four missions identified several areas where the
                 monitoring of program activities could be strengthened. For example, three of the
                 four missions were not adequately following up and reviewing reported
                 commodity losses. Moreover, two of these missions were not properly tracking
                 such losses. In addition, site visits at two of the missions were not being
                 performed on a regular basis and, in some cases, were too limited in scope.
                 Additional monitoring was also needed at one mission to ensure that cooperating
                 sponsors did not continue to deny food rations to program participants who were
                 unable to pay a “voluntary” contribution. These areas are discussed below.

                 Procedures for Reviewing Commodity Losses Should Be Strengthened

                 Although commodity losses4 were generally being reported to missions by
                 cooperating sponsors, three of the four missions audited were not adequately
                 following up and reviewing those losses to ensure that commodity loss claims
                 were processed in a timely manner and the U.S. Government’s interests were
                 protected as required by Regulation 11. For example, some reviews involved
                 insufficient work to ascertain the propriety of the loss claims while other reviews
                 were either deferred or not being performed at all. This was often due to a lack of
                 4
                   Commodity losses include losses resulting from damage, spoilage and theft that occur during
                 transportation or storage once the food has reached the intended country.

                                                                                                            7
understanding of the review process or a lack of available staff to allocate time to
this task, particularly when faced with other priorities. This has resulted in a
backlog of unresolved loss claims, some dating back to 1993, that are awaiting
recovery and possible restitution to the U.S. Government.

Chapter 10 D.2.b of USAID’s Handbook 9 (which provides interim policy
guidance that will eventually be included in the Automated Directive System)
assigns responsibility to USAID missions for reviewing reports of commodity
loss or damage reported by cooperating sponsors. As part of this review process,
missions are responsible for following up on reported commodity loss claims and
urged to meet regularly with the cooperating sponsors to review the status of
outstanding claims. Missions are also responsible for determining the validity or
propriety of each commodity loss claim, including whether the loss or damage
could have been prevented. If the cooperating sponsor is found to be responsible
for the loss, USAID Regulation 11, Section 211.9(d) requires the cooperating
sponsor to pay the U.S. Government for the value of any commodities lost or
damaged, unless USAID determines that the loss could not have been prevented
by proper exercise of the cooperating sponsor’s responsibility.

Unfortunately, commodity losses were not always receiving proper and timely
reviews. At three of the four locations audited, USAID missions were not
adequately following up and reviewing commodity loss claims to ensure that
these claims were processed and resolved in a timely manner. In Ghana, for
instance, the Mission maintained a spreadsheet for tracking reported commodity
loss claims, updating it based on new claims, but was not following up with
cooperating sponsors to determine the status of the claims.




        Photograph of preschool children receiving Title II food assistance under a
        school-feeding program in Ghana. (Langbinsi, Ghana, July 2003)


                                                                                      8
USAID/Madagascar, on the other hand, was not sufficiently reviewing reported
commodity losses, particularly those from spoilage, to ascertain the underlying
cause and determine the responsible party. In examining documents relating to
two major commodity losses in 2002 involving the spoilage of 100,465 kilograms
of food, the audit found no evidence that USAID/Madagascar had performed an
independent analysis of the commodity or inventory records. While there had
been much discussion between the Mission and the cooperating sponsor about the
two losses, the Mission relied on the cooperating sponsor to research the
circumstances surrounding each loss and provide an explanation. In Ethiopia,
meanwhile, the Mission made a concerted effort to follow up on its loss claims,
starting in 2001, but had claims filed prior to that year that were still unresolved.




Photograph of sacks of soya-fortified bulgur being stored at a warehouse in Madagascar.
(Fianaratsoa, Madagascar, January 2003)

Commodity losses were not receiving adequate follow up and review, in part,
because mission staff were unclear as to what was expected of them under
Regulation 11. Staff at USAID/Ghana, for example, were unaware of the steps
they needed to perform in order to follow up on reported commodity loss claims.
USAID/Madagascar, meanwhile, was unclear as to the extent of review work
required on its part to determine the validity of loss claims stemming from
spoilage, often relying on the cooperating sponsor to research the circumstances
surrounding these types of losses (rather than conducting its own independent
analysis). Efforts to monitor and review reported losses were also sometimes
deferred for an indefinite period due to other priorities. For example, when
Ethiopia was hit with a major drought at the end of 1999, the Mission was forced
to focus its efforts and staff time on implementing its emergency assistance
program, reducing the monitoring of its development program, including efforts
to follow up and resolve some of the Mission’s older commodity loss claims.

                                                                                     9
This lack of coverage over commodity losses has resulted in a backlog of
unresolved loss claims—including some that have remained outstanding for
years—which are not being resolved in a timely manner, thereby delaying the
recovery of funds due to the U.S. Government. For example:

       USAID/Ghana’s tracking records listed            $254,715    in   unresolved
       commodity loss claims dating back to 1998.

       USAID/Ethiopia was found to have $89,153 in unresolved commodity
       loss claims, including some dating as far back as 1993.

In addition to the above, the audit in Madagascar identified losses that were
initially reported in March and April 2002, yet continued to remain unresolved at
the time the report for that audit was issued in September 2003—18 months later.
The reported losses involved 100,465 kilograms (100.5 metric tons) of corn-soya
blend, valued at $45,645, which were deemed unfit for consumption due to
spoilage. At the time of the audit, in January 2003, a determination to assign
responsibility for these losses was still pending with efforts by the Mission to
reach a resolution appearing to be stalled due, in part, to the Mission’s reluctance
to investigate the losses. After a review of the cooperating sponsor’s commodity
inventory records, however, the audit revealed that these losses were clearly a
direct result of commodity mismanagement by the cooperating sponsor. Records,
for example, showed that the cooperating sponsor failed to take appropriate steps
to ensure that inventory stocks were rotated out of the warehouses in a timely
manner so as to avoid having food being stored beyond its 12-month shelf life.

To address the above issues and ensure that missions perform regular follow-up
and adequate review of commodity loss claims, we recommend the following:

       Recommendation No. 1: We recommend that the Bureau of
       Democracy, Conflict and Humanitarian Assistance’s Office of
       Food For Peace issue guidance to overseas operating units’
       Food Security Officers on the need to follow up on commodity
       loss claim reports on a regular basis, perform sufficient review
       of the claims to determine responsibility for the commodity
       losses and ensure that unresolved claims are reviewed and
       addressed in a timely manner.

Audits also found that missions were not always adequately tracking commodity
losses or performing regular site visits and identified one case where food was
being denied to program participants who did not pay a “voluntary” contribution.
While these findings are discussed in the remainder of this report, the report does
not contain formal recommendations addressing those issues since the findings
did not represent systemic problems among the countries audited and have been
addressed individually by the missions involved.


                                                                                 10
Procedures for Tracking Commodity Losses Should Be Strengthened

Contrary to USAID policy, mission procedures were not always adequate to
ensure that all reported commodity losses over $500 were being properly tracked
for monitoring purposes. This occurred because some missions were not properly
maintaining the schedules used to track reported commodity losses. As a result,
these records were not always accurate, thereby preventing the mission from
effectively monitoring and following up on all open commodity loss claims.

Regulation 11, Sec. 211.9 (f) requires cooperating sponsors to provide USAID
missions with a quarterly report listing any loss, damage or misuse of
commodities totaling $500 and above. The report must be provided within 30
days after the close of the calendar quarter and contain information such as: who
had possession of the commodities, who might be responsible for the loss,
damage or misuse, the kind and quantity of commodity, the contract number and
an estimated value of the loss.

In addition, Chapter 10 D.2.b. of USAID Handbook 9 assigns responsibility to the
USAID mission for reviewing the reports of commodity loss, damage and
improper distribution submitted by the cooperating sponsors, including the actions
taken by the cooperating sponsors for restitution or rectification. As part of this
review process, missions are required under the Chapter to establish a system for
following up on reported losses and claims. Specifically, the Chapter suggests the
use of a ledger system for tracking reported losses along with regularly scheduled
meetings with cooperating sponsors to review the status of outstanding claims.




Photograph of Maternal/Child Health beneficiaries waiting to receive their food rations at a
distribution center in Madagascar. (Fianaratsoa, Madagascar, January 2003)


                                                                                          11
In Madagascar, for example, the Mission received a quarterly commodity status
report from the cooperating sponsor containing information, in tabular form, on
all commodity losses incurred during the period along with individual loss claims
(for losses over $500) with a separate claim number assigned to each claim. Once
it received the report, the Mission posted these claims to a commodity loss claim
worksheet for tracking purposes and for facilitating follow up and review.

The missions audited, however, did not always ensure that their records for
tracking commodity losses over $500 were accurate and complete. For example:

       In Madagascar, the audit identified nine commodity losses (each over
       $500) totaling $13,322 that had been reported by Catholic Relief Services
       (CRS/Madagascar) in its Quarterly Commodity Status Reports, covering
       the period from July 2001 to September 2002. These losses were not
       listed in the Mission’s commodity loss tracking worksheet nor had a loss
       claim been filed for any of them.

       In Ethiopia, the audit found that a tracking schedule maintained by
       USAID/Ethiopia contained duplicate entries for two reported losses and
       did not indicate the status of outstanding loss claims.

These deficiencies existed, in part, because the missions involved were not always
recording commodity loss data reported by cooperating sponsors and not properly
maintaining the schedule used to track these losses. Mission staff in Madagascar,
for example, stated that they only recorded and tracked those commodity losses
associated with a commodity loss claim and were not checking to ensure that
claims had been filed for all losses (over $500) reported in the Quarterly
Commodity Status Reports. In Ethiopia, the audit found that the Mission was not
maintaining the tracking schedule for one of its cooperating sponsors on a regular
basis since the Mission had not been ensuring that the cooperating sponsor
reported its commodity losses in a timely manner. This was evidenced by a
statement found in the schedule indicating that recorded claims had not been filed
until recently (just prior to the audit) when the Mission started to collect loss
reports requested from the cooperating sponsor for the period 2000 through 2002.

Without accurate and current records, missions are not able to effectively track all
reported commodity losses (over $500) and ensure that these losses are reviewed
in a timely manner and restitution collected as appropriate.

To address this problem, the auditors recommended that the missions develop
improved procedures for tracking reported commodity losses. These procedures
included ensuring that the Mission’s commodity loss tracking system covered all
reported losses over $500 (and were not limited to only those for which a claim
had been filed) and periodically verifying the accuracy of the loss data posted to
the tracking schedule against the cooperating sponsor’s records.


                                                                                 12
Procedures for Performing Site Visits Should Be Strengthened

Although site visits were being performed at some missions as part of their
monitoring of program activities, two of the four missions audited were not
conducting these visits on a regular basis as required by USAID policy. This
occurred, in part, because the missions were not conducting the visits under a
structured monitoring plan and did not have written procedures specifying the
frequency and scope of their site visits. As a result, these missions were less
likely to identify potential problems affecting program activities in the field.

USAID Handbook 9, Chapter 9D states that mission oversight—essential to good
food aid management—should include, among other things, procedures for
performing regularly scheduled visits to distribution centers and warehouses. Site
visits represent an important component of monitoring because they provide
mission staff with an opportunity to personally observe the implementation of the
program and identify issues and problems that can affect the program’s success.

Two of the four missions audited were not performing their site visits on a regular
basis, thereby reducing the effectiveness of these visits. For example:

       Staff at USAID/Madagascar were not performing site visits on a regular
       basis and often scheduled these site visits in conjunction with visits by the
       Regional Food Security Officer or when the Mission Director was
       interested in viewing a particular activity. In addition, these visits were
       often limited in scope, focusing on the inspection of warehouse conditions,
       with no analysis of the inventory and commodity distribution records.

       USAID/Ethiopia, in response to other priorities, temporarily stopped
       performing site visits to the warehouses and distribution centers of two
       cooperating sponsors beginning in October 2001 and had yet to resume
       these visits at the time of our audit fieldwork in August 2003.

Site visits were not being regularly and properly conducted, in part, because
Mission monitoring procedures did not specify the frequency and scope of its site
visits. Furthermore, officials at USAID/Ethiopia stated that staffing constraints
played a role. For instance, site visits in that country had to be temporarily halted
in October 2001 when Mission staff were busy performing their annual review of
the cooperating sponsors’ proposals prior to their submission to Washington, D.C.
Even after this review was completed, staff continued to be occupied, shifting
their focus back to the Mission’s emergency food assistance program to address
the drought crisis that was taking place within the country—resulting in further
delays in the performance of site visits under the non-emergency food program.

By not performing site visits on a regular basis and under a structured monitoring
plan, missions will be less likely to identify problems in the field and forced to
rely increasingly on information furnished by the cooperating sponsors on their

                                                                                  13
activities. This reliance limits each mission’s monitoring of program activities,
allowing issues of potential importance to go unnoticed and unaddressed. Two
such examples were identified in Madagascar.

   Commodities Provided by Another Donor: During the September 2002
   initial distribution of non-emergency assistance under a Food For Work
   (FFW) program operated by the Cooperative for Assistance and Relief
   Everywhere (CARE) in Madagascar, CARE elected to include locally
   produced rice furnished by another donor in the activity’s food ration in
   addition to the Title II commodities. Since this represented a deviation from
   the food mix originally authorized in CARE’s proposal, prior Mission
   approval should have been obtained. While USAID/Madagascar officials
   claimed CARE never advised them of the rice or obtained prior approval, had
   a field visit been made to a distribution site during the initial round of
   activities, the distribution of the rice would have been apparent to the Mission
   and alerted them to the issue. The need to perform such visits was further
   underscored during a field visit to CARE’s central warehouse in January
   2003, at which time the auditors observed that some of the sacks of rice being
   stored there were becoming infested with insects. While CARE officials
   provided assurances that the rice would not be distributed in any FFP
   activities, it demonstrates how such issues—if allowed to go unnoticed or
   unaddressed—can have potentially adverse consequences on the success and
   reputation of the program.

   Transfer of Commodities Between Districts: USAID/Madagascar was also
   unaware of a major transfer of Title II commodities between districts
   undertaken by CRS/Madagascar under its Maternal/Child Health Program.
   Audit fieldwork disclosed that in late September 2002, CRS transported
   nearly all of the remaining stock in one of its district
   warehouses―approximately 74 metric tons of food commodities―to another
   district whose inventories were running low, causing severe food shortages at
   several distribution centers in the district from which the food was transferred.
   Although USAID/Madagascar was never informed of this transfer by CRS,
   we believe the Mission would have been in a better position to detect the
   transfer―a clear indication of commodity pipeline problems―during its site
   visits had it expanded its scope of work and included some analysis of
   inventory records while inspecting conditions at CRS warehouse facilities.

To assist missions in using site visits to more effectively monitor their programs
and identify potential problems, the auditors recommended that missions develop
a monitoring plan which includes procedures addressing the specific deficiencies
identified at each mission. Since these recommendations were directed
individually to the missions in their respective audit reports, this report does not
contain a recommendation re-addressing this issue.



                                                                                 14
Food Denied to Beneficiaries That
Did Not Make Voluntary Contributions

Beneficiaries receiving Title II food assistance under a Maternal/Child Health
(MCH) program in Guatemala were required to pay a monthly “voluntary”
contribution in order to receive their food rations and, in some cases, denied this
food if the participants were unable to make this contribution.

This practice is contrary to USAID Regulation 11, Section 211.5(f) which states
that “Commodities shall be distributed free of charge except as provided in
paragraphs (j) and (k) of this section5 or as otherwise authorized by AID/W, but in
no case will recipients be excluded from receiving commodities because of
inability to make a contribution to the cooperating sponsor for any purpose.”
[Emphasis added.]

                                           Under the MCH program in Guatemala,
                                           operated by CARE/Guatemala, program
                                           participants were required to pay a
                                           monthly contribution of 10 to 12 quetzals
                                           (approximately $1.40) in exchange for
                                           their food rations.        CARE officials
                                           explained that they were aware that these
                                           contributions were supposed to be
                                           voluntary. Nevertheless, they stated that
                                           all participants throughout the country had
                                           to pay the nominal fee—without
                                           exception—in order to offset the costs
                                           associated      with    transporting    the
                                           commodities to the warehouse, regional
                                           community centers and communities. The
                                           officials claimed that these operational
                                           expenses were substantial and included
                                           payments to shipping companies and
                                           community laborers, as well as payments
                                           for supplies, such as bags, oil pumps and
Photograph of an infant being weighed at a weighing scales.
Maternal/Child Health distribution center in
Ghana. (Bongbini, Ghana, July 2003)

CARE officials further asserted that fees cannot be made voluntary because if one
participant did not have to pay the required fee, word of this would quickly spread

5
  The exceptions in paragraphs (j) and (k) of 22 CFR Section 211.5 do not relate to this audit, as
they pertain to monetization programs and the use of monetized proceeds and program income.




                                                                                               15
                   throughout the community and prompt other participants to demand to be exempt
                   from paying the fee—resulting in no money being collected to defray expenses.

                   As a result of this practice, individuals who would otherwise be eligible to receive
                   Title II commodities under the program are being turned away and denied this
                   food if they do not make the required contribution. During a field visit, audit staff
                   observed two instances where participants were refused food for this reason. The
                   audit, however, could not estimate how many individuals were affected over the
                   course of the program since records of the number of people denied food as a
                   result of not making the contribution were not being maintained. Nevertheless,
                   we believe the cooperating sponsor should desist from this practice since it
                   violates Regulation 11 and could adversely impact the program’s ability to
                   achieve its objective of improving health and reducing malnutrition.

                   To address this problem, the auditors recommended that USAID/Guatemala
                   advise the CARE country representative that CARE cannot refuse food to
                   individuals who do not make the voluntary contribution. In addition, the report
                   indicated that the Mission needed to institute monitoring procedures to ensure this
                   practice does not continue in the future.




Management     In response to our draft audit report, the Bureau of Democracy, Conflict and
Comments and Humanitarian Assistance’s Office of Food for Peace (DCHA/FFP) provided
Our Evaluation written comments that are included in Appendix II. In its response, DCHA/FFP
                   concurred with the audit recommendation contained in the report and described
                   action taken to address this recommendation. As evidence that this action had
                   been completed, DCHA/FFP also furnished a copy of a cable recently issued to
                   overseas operating units providing guidance to address the auditors’ concerns
                   regarding the follow up and review of commodity loss claims. Based on this
                   action, we consider that final action has been taken with regards to this
                   recommendation.




                                                                                                     16
                                                                                       Appendix I


Scope and     Scope
Methodology
              The audits discussed in this report were conducted by the Office of Inspector
              General’s Performance Audit Division in Washington, D.C. (lead office) and the
              Regional Inspector General offices in El Salvador, Senegal and South Africa in
              accordance with generally accepted government auditing standards. The audits
              were performed in four countries: Madagascar, Guatemala, Ghana and Ethiopia.

              In carrying out these audits, work was performed at the USAID mission offices in
              Antananarivo (Madagascar), Guatemala City (Guatemala), Accra (Ghana), and
              Addis Ababa (Ethiopia) and at the headquarters and field offices of the
              cooperating sponsors (CSs) and other implementing partners whose activities
              were selected for review. Fieldwork also included site visits to selected ports,
              warehouse facilities and food distribution sites within each country.

              The purpose of this worldwide audit was to determine whether selected USAID
              missions and their CSs were monitoring and providing accountability over
              USAID-donated food commodities to ensure that Title II non-emergency
              assistance programmed for direct distribution programs had been delivered to the
              intended beneficiaries. The work in each selected country included looking at the
              movement of commodities from the port to the warehouses and distribution sites.
              The audit also included a review of management controls for monitoring distribution
              operations in the field. This review involved examining documents on file at the
              mission, such as the commodity status and loss reports, and ascertaining whether the
              mission maintained regular contact with the CSs and the frequency of site visits.

              The fieldwork for these audits was conducted in:
                      Madagascar – Antananarivo and various sites within Tamatave, Antsirabe
                      and Fianarantsoa districts from January 7 to January 31, 2003.
                      Guatemala – Guatemala City, Copán, Santa Cruz and Nebaj, from June 2 to
                      June 27, 2003.
                      Ghana – Accra and sites in the country’s Northern, Central, Eastern, Greater
                      Accra, Ashanti and Brong Ahafo regions from July 11 to July 25, 2003.
                      Ethiopia – Addis Ababa, Dire Dawa, Nazareth, Mekelle, Degua Tembien,
                      Were Lehe, Mereb Lehe and Ahferom from July 28 to August 27, 2003.

              The audit focused primarily on distribution operations relating to selected activities
              in the four countries. Approved quantities of USAID-donated commodities received
              under these activities in fiscal year 2002 included $34.4 million in cornmeal, corn-
              soya blend, beans, lentils and vegetable oil. The audit specifically did not cover (1)
              Title II emergency assistance, (2) food aid distributed through the U.N. World Food
              Program and (3) non-emergency assistance provided for monetization purposes.


                                                                                                 17
Methodology

This worldwide audit was based on the results of fieldwork performed at USAID
missions in four countries. These countries were judgmentally selected based on
the level of Title II non-emergency assistance received, prior audit coverage,
types of development activities and other considerations.

To accomplish the audit objective, we initially gained an understanding of each
country’s direct food aid distribution program through discussions held with
USAID mission officials, cooperating sponsors and their implementing partners
and program beneficiaries. Based on these discussions, write-ups were prepared
to document our understanding of different aspects of the commodity arrival,
storage, distribution and reporting processes.

In reviewing each mission’s management controls for monitoring food aid
distribution activities, we examined a variety of documents on file at the mission,
including correspondence, project proposals, trip reports, quarterly commodity
status reports, commodity loss reports/claims and program results reports.

In addition, we also performed the following steps:

   Reviewed applicable laws, regulations, USAID policy and guidance, and
   written mission procedures related to the audit objective.

   Interviewed responsible mission officials and cooperating sponsor personnel,
   both at the headquarters and field level, concerning the following areas:
       - familiarity with the program, including types of records maintained;
       - procedures for monitoring and controlling the receipt, storage,
         movement and distribution of commodities;
       - frequency and scope of site visits and basis for selecting locations; and
       - process for accumulating and reporting data on program results.

   Performed site visits to selected ports, storage facilities and distribution sites
   where inventory records were examined and, in some cases, tested against
   existing inventory levels; also inspected storage facilities to determine
   whether appropriate safeguards were in place to protect stored commodities.

   Reviewed information on reported commodity losses to determine whether the
   mission tracked reported losses and reviewed the status of outstanding loss
   claims and whether the mission and cooperating sponsor took appropriate
   action to seek recovery for damaged, missing and spoiled commodities.

A materiality threshold was not established for this audit since it was not considered
to be applicable given the qualitative nature of the audit objective which focused on
assessing mission monitoring over program activities.


                                                                                   18
                                                                                             Appendix II


Management
Comments

                     U.S. Agency for International Development
                     Bureau for Democracy, Conflict and Humanitarian Assistance
                     Office of Food for Peace
                     Washington, DC 20523-7600



                                                                                          March 19, 2004
MEMORANDUM

TO:            IG/A/PA, Director, Nathan S. Lokos

FROM:          DCHA/FFP/D, Lauren R. Landis /s/

SUBJECT:       Audit of USAID’s Distribution of P.L. 480 Title II Non-Emergency Assistance in Support
               of its Direct Food Aid Distribution Program (Audit Report No. 9-000-04-00X-P)

This memorandum contains FFP comments in response to the subject report on the audit conducted by
IG/A/PA on the worldwide P. L. 480 Title II Non-Emergency Direct Distribution programs.

FFP thanks you and your staff for this report and the effort that went into researching and preparing the
document. FFP recognizes the value that this report provides in affirming the positive efforts of the field
missions in monitoring Title II activities, while outlining specific steps that FFP can take to assist the
missions to improve their operational oversight of Title II non-emergency distribution programs.

FFP concurs with the recommendation that the Bureau of Democracy, Conflict and Humanitarian
Assistance’s Office of Food for Peace issue guidance to overseas operating units reminding Food
Security Officers of the need to follow up on commodity loss claim reports on a regular basis, perform
sufficient review of the claims to determine responsibility for the commodity losses and ensure that
unresolved claims are reviewed and addressed in a timely manner.

In response to the recommendation, FFP has issued a world-wide mission cable reminding missions of
their responsibility to track and monitor the loss reports and follow up regularly on claims to ensure
timely resolution and recovery of losses. Please see the copy of the cable (State 060421) attached. In
addition, FFP will add a training segment on commodity loss monitoring and tracking to its Food Aid
Management Course (FAMC) which is offered each year to FFP field and headquarters staff. This
training will help to ensure that FFP officers understand their role and responsibilities in commodity
management and enhance their knowledge and skills in monitoring, tracking and resolution/recovery of
Title II commodity losses.

                                                                                                        19
Cc:    DA/DCHA, Roger Winter
       DAA/DCHA, Garrett Grigsby


Clearances:

FFP/PT, A. Crumbly_______________Date_________
FFP/POD, J. Drummond____________Date:__________
FFP/DP, P.E. Balakrishnan__________Date__________
FFP/EP, D. Weller________________Date__________
FFP/D, L. Landis_________________Date_________




                                                    20
                                                                              Appendix III


Reports     Report No. 9-687-03-010-P, “Audit of USAID/Madagascar’s Distribution of P.L.
Issued on   480 Title II Non-Emergency Assistance in Support of its Direct Food Aid
            Distribution Program,” September 24, 2003
Selected
Operating   Report No. 1-520-03-008-P, “Audit of USAID/Guatemala’s Distribution of P.L.
Units       480 Title II Non-Emergency Assistance in Support of its Direct Food Aid
            Distribution Program,” September 26, 2003

            Report No. 7-641-04-001-P, “Audit of USAID/Ghana’s Distribution of P.L. 480
            Title II Non-Emergency Assistance in Support of its Direct Food Aid Distribution
            Program,” October 15, 2003

            Report No. 4-663-04-002-P, “Audit of USAID/Ethiopia’s Distribution of P.L. 480
            Title II Non-Emergency Assistance in Support of its Direct Food Aid Distribution
            Program,” November 21, 2003




                                                                                         21
This page left intentionally blank




                                     22
                                                                                       Appendix IV


Summary of Selected Audit Recommendations

              Recommendations                         Madagascar   Guatemala   Ghana    Ethiopia
Commodity Losses – Follow-up and Review:
Develop and implement procedures requiring the            X                     X
follow-up on all commodity losses (over $500).

Commodity Losses – Follow-up and Review:
Make a determination and collect, as appropriate,         X                     X          X
the value of reported commodity losses (over
$500) relating to unresolved loss claims.

Commodity Losses – Tracking: Make a
determination and collect, as appropriate, nine           X
reported losses (over $500) that were not
recorded to the mission’s commodity loss
tracking schedule.

Commodity Losses – Tracking: (1) revise the
commodity loss tracking schedule to exclude
duplicate claims identified during the audit and
indicate the status of all unresolved commodity                                            X
loss claims for monitoring purposes; and (2)
develop and implement procedures to verify the
accuracy and completeness of the cooperating
sponsor’s commodity loss reports.

Site Visits: Develop a monitoring plan that
contains procedures (1) specifying the frequency
of site visits and expanding the scope of work to
include gaining an understanding of commodity
inventory and distribution procedures as well as
examining records and spot-checking a sample
of recorded entries (Madagascar); and (2)                 X                                X
providing a plan of action to resume site visits to
the cooperating sponsors’ warehouses and
distribution centers (Ethiopia).

Voluntary Contributions: (1) Notify the
cooperating sponsor that it cannot refuse food to
program participants that do not make a
voluntary contribution and (2) implement a                            X
monitoring system to ensure compliance.




                                                                                                   23
This page left intentionally blank




                                     24
